                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




    STATUS OF THE CORPORATION’S IMPLEMENTATION
        OF HOMELAND SECURITY PRESIDENTIAL
                 DIRECTIVE/HSPD-12

                      OIG REPORT 08-23




                 1201 New York Avenue, NW,
                          Suite 830
                   Washington, DC 20525
                  Telephone (202) 606-9390
                  Facsimile (202) 606-9397




This report was issued to Corporation management on September 25, 2008. Under
the laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
March 25, 2009 and complete its corrective actions by September 25, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                      September 25, 2008



TO:            Ray Limon
               Chief Human Capital Officer

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Office of Inspector General Report 08-23, Status of the Corporation’s
               Implementation of Homeland Security Presidential Directive/HSPD-12


Attached is the final report on the Status of the Corporation’s Implementation of Homeland
Security Presidential Directive/HSPD-12.

Under the Corporation’s audit resolution policy, the notice of final action is due by March 25,
2009.

If you have questions pertaining to the final report, please contact Jim Elmore, Audit
Manager, at (202) 606-9354 or j.elmore@cncsoig.gov.

Attachment

cc:   William Anderson, Acting Chief Financial Officer
      Nicola Goren, Chief of Staff
      Norm Franklin, Director, Personnel Security
      Sherry Blue, Audit Resolution Coordinator




                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
                     Status of the Corporation’s Implementation of Homeland Security
                                      Presidential Directive/HSPD-12


                                                        Table of Contents



Executive Summary .............................................................................................................. 1

Objectives, Scope, and Methodology ……………………………. ........................................... 1

Background ........................................................................................................................... 2

Criteria ................................................................................................................................... 2

Results and Recommendations ............................................................................................. 3

Corporation for National and Community Service Response.................................. Appendix




                                                                      i
Executive Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), reviewed the Corporation’s status with regard to implementing Homeland
Security Presidential Directive/HSPD-12 (Directive). The Directive provided for all Executive
Departments and Executive Agencies to implement the requirements of the Directive and for
the Office of Management and Budget (OMB) to provide implementing guidance. The
OMB’s implementing guidance excluded Executive Agencies that are also Government
Corporations from mandatory implementation of the Directive.             Nevertheless, the
Corporation discussed, with OMB, its plans to “comply as much as possible” if resources
become available.

However, resource issues have left implementation and the degree of implementation
uncertain at this time. As a result, the Corporation is not able to prepare, with reasonable
accuracy, estimates of the dates for accomplishing milestones that normally would be
associated with implementation of projects and programs. We recommended that the
Corporation prepare an action plan, and periodically advise OMB of implementation status
so that OMB can meet its tasking to ensure compliance for entities implementing the
Directive.

The Corporation in its response (see Appendix) to a draft of this report agreed to prepare an
action plan when resources for implementing HSPD-12 become available. It also agreed
that GSA would notify OMB of the Corporation’s implementation progress because of the
existing interagency agreement with GSA. The Corporation’s response met the intent of the
recommendations.

Objectives, Scope, and Methodology

Initially, the OIG announced this effort as an audit but later converted the effort to a review
because of the degree of involvement of the General Services Administration (GSA) in the
implementation of HSPD-12 at or for the Corporation. The objectives of the engagement
were to determine whether the Corporation: (1) implemented HSPD-12 and (2) established
sufficient management controls to ensure the security of, and restricted access to, the
equipment, software, information, and materials used in its identification processing
program. The OIG revised the objectives of the engagement upon converting the effort to a
review to report on the status of implementation of HSPD-12 at the Corporation so that
stakeholders would be aware of the Corporation’s efforts.

Actions of the Corporation since the inception of HSPD-12 through November 2007 were
subject to the review. Information that became available to us in June 2008 is also included
in this report.

Our methodology included reviews of documentation at the Corporation and Federal
Government Internet sources of criteria from the OMB, Department of Commerce, and the
GSA. We limited our interviews to Corporation officials mostly within the Office of Human
Capital, including the Office of Personnel Security.

We conducted our review from February 9, 2007, through June 30, 2008, in accordance with
Quality Standards for Inspections (January 2005) issued by the President’s Council on
Integrity and Efficiency. An exit conference was held with Corporation management on,



                                              1
August 14, 2008, to discuss the issues and recommendations presented in this report. The
Corporation’s response to the draft report is included as an Appendix.


Background

Homeland Security Presidential Directive/HSPD-12 (Directive), signed by President Bush on
August 27, 2004, required the Secretary of Commerce to promulgate a Federal standard for
secure and reliable forms of identification for Federal employees and contractors. The
Directive also established timelines for executive agencies to implement this standard.

On January 11, 2007, the Office of Management and Budget (OMB), issued OMB
Memorandum for Chief Information Officers, Validating and Monitoring Agency Issuance of
Personal Identity Verification Credentials (M-07-06). In addition to guidance for executive
agencies, M-07-06 advised that it had requested the President’s Council on Integrity and
Efficiency to review agency processes and help ensure they are consistent with the
Directive and Federal Information Processing Standard 201. We reviewed the status of the
Directive at the Corporation because of the OMB request to the President’s Council on
Integrity and Efficiency. The status of compliance is addressed in Appendix A.


Criteria

The Presidential Directive. The Directive stated that it is the policy of the United States to
enhance security, increase Government efficiency, reduce identity fraud, and protect
personal privacy by establishing a mandatory, Government-wide standard for secure and
reliable forms of identification issued by the Federal Government to its employees and
contractors (including contractor employees). Furthermore, to implement this new policy,
the Directive tasked the Department of Commerce, in consultation with certain key
Government officials and the Director, OMB, to promulgate a Federal standard for secure
and reliable forms of identification.

The Directive also required implementing agencies to meet several milestones, including:
(1) not later than four months following promulgation of the Federal standard, the heads of
executive departments and agencies shall have a program in place to ensure that
identification issued by their departments and agencies to Federal employees and
contractors meet the standard; and (2) as soon as possible, but not later than eight months
after the date of the promulgation of the standard, agencies “shall, to the maximum extent
practicable, require the use of identification by Federal employees and contractors that meet
the standard in gaining physical access to Federally controlled facilities and logical access
to Federally controlled information systems.” Departments and agencies were to implement
HSPD-12 in a manner consistent with ongoing Government-wide activities, policies, and
guidance issued by OMB, which shall ensure compliance. Subsequently, the Department of
Commerce issued the Federal standard and OMB issued implementing guidance.

The Standard. On February 25, the Department of Commerce issued Federal Information
Processing Standards Publication 201 (FIPS 201), Personal Identity Verification (PIV) of
Federal Employees and Contractors (Standard). The Standard was reissued in March 2006
as FIPS 201-1 and revised with Change Notice 1 in June 2006.




                                              2
Government-wide Implementing Guidance. OMB issued its initial implementing guidance
on HSPD-12 and FIPS 201 on August 5, 2005, in OMB Memorandum M-05-24,
Implementation of Homeland Security Presidential Directive (HSPD) 12 – Policy for a
Common Identification Standard for Federal Employees and Contractors. Selected
information and requirements are:

      Appendix A, paragraph 1.A. Executive departments and agencies listed in title 5
       U.S.C. § 101, the Department of Homeland Security, and independent
       establishments defined by title 5 U.S.C. §104(1), and the United States Postal
       Service are subject to HSPD-12. However, OMB provided that Government
       corporations, as defined by title 5 U.S.C. § 103(1), such as the Corporation for
       National and Community Service, are encouraged but not required to implement
       HSPD-12.

      Appendix A, paragraph 2.B. Covered agencies and departments shall submit
       implementation plans to OMB by June 27, 2005.

      Appendix A, paragraph 7.A. Identify to OMB by August, 26, 2005, those Federally
       controlled facilities, Federally controlled information systems, and other Federal
       applications that are important for security and for which use of the Standard (FIPS
       201-1) in circumstances not covered by HSPD-12 should be considered.

      Appendix A, paragraph 5.C. OMB noted that it may not be cost effective for a small
       department or agency to procure its own products or services and provided for the
       GSA to identify agency sponsors who will provide a range of services to agencies.
       The extent and cost of services to be provided will be determined by agreement
       between the sponsor and the customer agency.

Agency Sponsor. The GSA became one of the agency sponsors that provides HSPD-12
products and services to Federal agencies. GSA’s USAccess Program enables Federal
Government agencies to credential employees, contractors, and affiliates. The GSA
HSPD-12 Managed Service Office (MSO) is the executive agent responsible for providing
Federal agencies with interoperable identity management and credentialing solutions that
provide end-to-end services to enroll applicants, issue credentials, and manage the lifecycle
of these credentials. The MSO offers the end-to-end solution as a shared service to Federal
agencies when agencies sign up through interagency agreements. Although some
agencies are implementing HSPD-12 without sponsorship, the GSA, through its USAccess
Program, already has agreements to provide at least some HSPD-12 services to nearly 67
agencies, including the Department of Agriculture, Department of Housing and Urban
Development, and the Corporation. It began issuing credentials for agencies in August
2007.


Results and Recommendations

Sponsored HSPD-12 Services to the Corporation. The Corporation entered into a
memorandum of understanding (MOU) with the HSPD-12 MSO on September 19, 2006. On
September 21, 2006, the Corporation provided a reimbursable agreement as a financial
addendum to the MOU, which provided $10,000 to GSA’s Federal Technology Service, “To
provide the initial funding for the HSPD-12 Shared Service Provider contract award and
administration. Funding for the cost of developing and operating the PMO [Project


                                             3
Management Office] is also included.” The GSA may perform many of the key roles in the
process of issuing personal identity verification credentials.

The Corporation voluntarily chose to implement the Directive to the extent resources were
available but has not yet defined the roles to be performed by Corporation personnel and
the separation of duties, which are critical to compliance. The Corporation lacks a written
plan and milestones for implementation because of the uncertain availability of resources.

The Corporation’s existing card readers at various physical entry points throughout the
Headquarters building were selected early on to be capable, with reprogramming, of reading
the GSA-issued personal identity verification credentials, which are planned to be fully
compliant with the Directive and implementing standards and guidance.

The Corporation represented to the OIG that it was not subject to the requirements of the
Directive. However, the Corporation planned to implement certain elements of the Directive
and supplementing guidance. Although the Directive is mandatory for almost all Federal
agencies and departments, its application to the Corporation, which is continuing at this time
to voluntarily implement the guidance, is uncertain because the OMB did not provide
specific guidance for agencies voluntarily opting to implement the Directive. However, by
electing to implement the Directive, the Corporation, we believe, must coordinate with OMB
in order for OMB to meet its mandate to ensure compliance throughout the Federal
Government. The Director, Personnel Security, and an OMB Senior Policy Analyst
discussed by telephone in April 2008 the efforts of the Corporation to implement the
Directive. The Director, Personnel Security, advised the OIG that OMB agreed that the
Corporation’s implementation efforts were voluntary. We believe that the Corporation
should periodically advise OMB of its implementation status.

On October 23, 2007, OMB implied in its Memorandum for Heads of Departments and
Agencies, HSPD-12 Implementation Status, M-08-1, that all implementing agencies may
need to have an agreement with OMB concerning agency implementation schedules and
plans. Although the Corporation has been on a path to voluntarily implement the Directive,
the Corporation did not formally notify OMB of its intention to implement the Directive until
OMB contacted the Corporation in April 2008. Notwithstanding, the Corporation advised us
in November 2007 that it plans to use GSA’s services to issue fully compliant personal
identity validation credentials in calendar year 2008. In May 2008, the Director, Personnel
Security, revised the estimate to calendar year 2009.


Recommendations. We recommend that the Corporation:

   1.a. Prepare a tentative action plan for HSPD-12 implementation, including identifying
        the roles of key figures, separation of duties, and milestones.

         Corporation Response. The Corporation agreed to establish a tentative action
         plan once it has received the funding resources required to implement HSPD-12.

         OIG Comment. The planned actions satisfy the intent of the recommendation.


   1.b. Periodically notify the Office of Management and Budget of the status of its plans
        to implement HSPD-12.


                                              4
         Corporation Response. The Corporation stated that its interagency agreement
         with GSA provided for a turn key implementation of HSPD-12. It also stated that it
         would notify GSA, once the Corporation has full HSPD-12 funding, and GSA in turn
         would communicate with OMB regarding the Corporation’s progress.

         OIG Comment. The planned actions satisfy the intent of the recommendation to
         keep OMB informed.

This report is intended for the information and use of the Corporation for National and
Community Service, Office of the Inspector General, and the U.S. Congress. However, this
report is a matter of public record and its distribution is not limited.




Stuart Axenfeld /s/
Assistant Inspector General for Audit
September 25, 2008




                                            5
Appendix: Corporation for National and Community Service Response
                                  NATIONAL&:
                                  COMMUNITY
                                  SERVIcEttte


                                       SEP 11 2...8

MEMORANDUM FOR STUART AXENFELD
               Assistant Inspector General for Audit

FROM:                    Raymond Limon
                         Chief Human Capital Officer

SUBJECT:                 Draft Report on Corporation Implementation of Homeland
                         Security Presidential DirectivelHSPD-12


Thank you for your recommendations regarding the Corporation's implementation of its
personnel security program. As you correctly indicate in your report, the Office of
Management and Budget (OMB) excluded Government corporations from mandatory
implementation of the Directive. However, the Corporation still manages a personnel
securityprograrn which attempts to fulfill the intent ofHSPD-12.

In regards to your two recommendations:

I. Prepare a tentative action plan for HSPD-12 implementation, including identifying the
role of key figures, separation of duties, and milestones.

2. Periodically notify the Office of Management and Budget (OMB) of the status of its
plans to implement HSPD-12.

Resource issues have left the implementation and degree of implementation of this
program uncertain at this time. An action plan would be premature. However, the
Corporation will prepare a tentative action plan once it has received the funding resources
required to implement HSPD-12.

Since the Corporation has entered into an interagency agreement with the General
Service Administration (GSA) to provide turn key implementation of the HSPD-12
requirements, we will notify GSA once we have full HSPD-12 funding. GSA in turn will
communicate with OMB on our implementation progress.




                                                     *
                                                                                       ' US~
                        1201 New York Avenue, NW    Washington, DC 20525
                              202-606-5000    *
                                              www.nationalservice.org
                                                                                         Freedom Corps
                        Senior Corps   * AmeriCorps * Learn and Serve America            The President', Call to Service
